OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/SENEGAL’S
EDUCATION PRIORITY QUALITY
PROJECT

AUDIT REPORT NO. 7-685-14-002-P
JULY 9, 2014




DAKAR, SENEGAL
Office of Inspector General


July 9, 2014

MEMORANDUM

TO:                USAID/Senegal Mission Director, Susan Fine

FROM:              Regional Inspector General/Dakar, Abdoulaye Gueye /s/

SUBJECT:           Audit of USAID/Senegal’s Education Priority Quality Project (Report No. 7-685-
                   14-002-P)


This memorandum transmits our final report on the subject audit. We have considered
your comments on the draft report and included them in Appendix II.
The final report contains nine recommendations to help USAID/Senegal improve its
Education Priority Quality Project. In its comments on the draft report, USAID/Senegal
agreed with all nine recommendations. Having evaluated management comments, we
acknowledge the mission’s management decisions on all recommendations, except
Recommendation 3.
Please coordinate final action for all recommendations with the Office of Audit Performance
and Compliance Division.
Thank you for the cooperation and assistance extended to the team during this audit.




U.S. Agency for International Development
American Embassy Dakar
Route des Almadies
B.P. 49
Dakar, Senegal
http://oig.usaid.gov
CONTENTS
Summary of Results .................................................................................................................1

Audit Findings ...........................................................................................................................5

     USAID/Senegal Did Not Comply With Some Substantial Involvement Clauses .....................5

     Implementing Partner Included Ineligible Costs in Its Cost-Share Contribution......................7

     Design and Implementation Weaknesses Made Some Activities Unsustainable ................... 8

     Six Regional Training Centers Were Not Operating as Envisioned........................................9

     Remedial Program Fell Short of Its Goal .............................................................................10

     Some Reported Results Lacked Sufficient Documentation and Did Not Meet
     Data Quality Standards .......................................................................................................12

Evaluation of Management Comments..................................................................................15

Appendix I—Scope and Methodology ...................................................................................17

Appendix II—Management Comments ..................................................................................19

Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AOR             agreement officer’s representative
DQA             data quality assessment
FY              fiscal year
RIG             Regional Inspector General
RTI             Research Triangle Institute
SUMMARY OF RESULTS
The Government of Senegal has demonstrated a strong commitment to improving education. Its
10-year Education and Training Development Program (2001–2011) and assistance from
international donors have increased access to education, partly because of rapid construction of
new elementary and middle school facilities. Between 2005 and 2011, primary school
enrollment rates soared from 79 percent to 93 percent, with a higher number of girls enrolling
than boys. Also during this period, primary schools’ rates of in-grade retention (repeating a
grade) and dropout fell, while promotion rates to middle school improved.

Despite these achievements, the quality of education in Senegalese schools remains troubling.
A lack of qualified teachers leads many middle schools to rely on vacataires, or teachers lacking
appropriate preservice training and professional orientation. Furthermore, Ministry of Education
statistics show low levels of student achievement in the fundamentals: French and mathematics.

To help address these issues, in May 2010 USAID/Senegal awarded Research Triangle
Institute (RTI) a 4.5-year, $19.8 million cooperative agreement to implement its Education
Priority Quality Project. 1 In September 2011, the mission increased the total estimated cost of
the award by nearly $300,000 to add a component, but decreased it by approximately
$4.4 million in September 2013 to $15.8 million to eliminate work planned in two geographic
areas and limit planned renovation activities. The project was scheduled to end in September
2014. As of November 30, 2013, cumulative obligations totaled $12.1 million, and
disbursements totaled $11.2 million.

RTI designed the project to support USAID/Senegal and the Government of Senegal’s objective
of “better educated youth by improving the quality of basic education for middle school aged
youth.” To reach this objective, RTI implemented its activities through five components meant to
(1) revitalize and regionalize teacher preparation and professional development, (2) engage
community members in school management, (3) strengthen students’ basic skills in reading and
math, (4) mobilize and create opportunities for youth, and (5) provide training to children with
disabilities.

The Regional Inspector General/Dakar (RIG/Dakar) conducted this audit as part of its fiscal year
(FY) 2013 audit plan. The audit’s objective was to determine whether the project has been
successful in improving the quality of education in supported schools.

The project’s activities produced mixed results. Some activities improved the quality of middle
school education in Senegal, as noted below.

Regional Training Center Decree. To make teacher training available outside Dakar, the
capital, the project helped draft a presidential decree that established 14 regional training
centers throughout Senegal. The decree made the centers responsible for providing preservice
and continuing training to middle school teachers.



1
  Although the project is commonly known as Education Priority Quality (or its French equivalent,
Education Priorité Qualité), USAID/Senegal awarded the cooperative agreement under the name
Improving Education Quality in Senegal.


                                                                                               1
Teacher Performance Standards. To create a professional development program for teachers,
the project revised a set of teacher performance standards produced under a prior
USAID/Senegal project. The standards outline the criteria and indicators to measure a teacher’s
proficiency in six domains: fundamental knowledge; understanding that the student is at the
center of the learning process; professional practice; professional development; leadership; and
ethics. The Ministry of Education validated the standards.

Gender Integration Guides. To promote a quality education for all learners and reduce sex-
based disparities in middle school education, the project developed a gender integration guide
that encourages gender equality in schools. The project also incorporated gender
considerations into the Ministry of Education’s guidelines for teacher transfers and developed
guidance on services and incentives needed to encourage the recruitment and retention of
female teachers and the promotion of women to positions of responsibility in Senegalese
schools, especially in rural areas.

School Self-Assessment and Quality Improvement Plan. To encourage accountability for the
quality of schools, the project introduced the school self-assessment process. It helps a school
identify its strengths and weaknesses, and calls on community members to provide input into a
quality improvement plan. Several educators praised the self-assessment and quality
improvement plan processes for encouraging community members to become active in the
management of schools.

Inclusive Education Guide. To promote a quality education for all students, including those
with a disability, the project developed an inclusive education guide for educators. This guide,
the first of its kind in Senegal, helps educators identify and work with students who have a range
of disabilities.

Remediation. Students demonstrating a lack of proficiency in middle school French and
mathematics participated in a remedial program. Although the audit identified weaknesses in the
implementation of this program, many middle school administrators and teachers said it helped
reduce grade repetition and dropout rates, and increase promotion rates.

Despite these achievements, the audit also identified weaknesses in the project and in
USAID/Senegal’s management of it:

•   USAID/Senegal did not comply with some substantial involvement clauses in the
    cooperative agreement (page 5). For example, the mission did not review and approve
    some project plans and reports, provide more than minimal oversight, or respond promptly
    to requests from the implementing partner. Further, the agreement officer’s representative
    (AOR) did not perform or document actions delegated under the AOR designation letter,
    including monitoring cost sharing. 2

•   RTI included ineligible costs in its cost-sharing contribution (page 7). The costs, salaries for
    teachers of remedial courses, were paid by the Ministry of Education and were not on the
    list of approved cost-sharing items.




2
  According to USAID’s Automated Directives System 303.3.10, “Cost share refers to the resources a
recipient [of an award—i.e., the implementing partner] contributes to the total cost of an agreement.”


                                                                                                    2
•   Design flaws and implementation weaknesses made some activities unsustainable (page 8).
    Teachers were reluctant to provide remedial instruction, which they often had to do on their
    own time, and students were reluctant to attend without the incentive of refreshments
    because in many places the remedial program was not made part of the regular school day.
    Further, the remedial program depended on short-term grants. Teaching entrepreneurship
    to youth did not work because trainees were too young to be eligible for credit to start
    businesses. Similarly, efforts to educate students with disabilities targeted the wrong
    demographic and produced no discernible results.

•   Six regional training centers established under the project were not operating as envisioned
    (page 9). The training centers did not provide preservice training to middle school teachers
    as required. Renovation activities were delayed, and planned construction will not be
    completed.

•   The remedial program fell far short of its goal (page 10). Some teachers in the partner
    schools did not understand the program, materials were inadequate, classes were too big
    because the number of students needing remedial instruction was bigger than anticipated,
    and the program started too late in the year to be part of the school day.

•   Some reported results lacked sufficient documentation and did not meet USAID data quality
    standards of validity, integrity, and timeliness (page 12).

To address these issues, we recommend that USAID/Senegal:

1. Implement a plan requiring its technical offices to perform necessary management
   responsibilities, including maintaining adequate files (page 7).

2. Implement a plan to document its quarterly review of RTI’s cost-share contribution. This
   review should include steps to request supporting documentation for the amount reported
   and to verify that the reported items comply with the agreed-upon elements for the project
   (page 7).

3. Determine the allowability of the $251,713 in ineligible questioned costs included in the
   project’s cost-sharing contribution, and collect from RTI any amount deemed unallowable
   (page 7).

4. Require its partners to include in their periodic progress reports a discussion of the
   sustainability of activities (page 9). This discussion should identify any obstacles to
   sustainability and actions to address them.

5. In coordination with RTI, implement a plan to resolve the problems impeding operations of
   the regional training centers (page 10).

6. Notify the Ministry of Education, in writing, of its intention not to build regional training
   centers in project areas (page 10).

7. In coordination with RTI, develop clear, user-friendly documents for teachers and school
   administrators to use in carrying out the remedial course (page 12).




                                                                                              3
8. In coordination with RTI, implement a plan to retrain teacher trainers in the proper
   administration of the remedial course and its accompanying tool kit (page 12). This plan
   should include a schedule for carrying out additional teacher-retraining sessions.

9. In coordination with RTI, implement a plan to verify that the final results reported by the
   project comply with USAID data quality standards (page 14).

Detailed findings appear in the following section. Appendix I contains information on the scope
and methodology. Mission comments are included in Appendix II, and our evaluation of them is
on page 15.




                                                                                             4
AUDIT FINDINGS
USAID/Senegal Did Not Comply With Some
Substantial Involvement Clauses

USAID’s Automated Directives System (ADS) 303.3.11 states, “An AOR will substantially be
involved in the administration of a cooperative agreement to help the recipient achieve the
agreement objectives.” It also defines the elements of substantial involvement in a cooperative
agreement and requires that a mission formally outline any such anticipated involvement during
an agreement’s period of performance.

The cooperative agreement between USAID/Senegal and RTI makes several such provisions to
ensure the achievement of project and mutual objectives. These provisions include:

•   Ongoing, close collaboration in the implementation of project activities. The principal
    mechanism for this involvement will be the review and approval of quarterly reports, annual
    work plans, and annual reports.

•   Approval of a monitoring and evaluation plan with clear benchmarks and indicators.

The AOR designation letter 3 further emphasizes the AOR’s responsibility to comply with the
agreement’s substantial involvement clauses. This letter also gives the AOR certain financial
management responsibilities, including the monitoring of cost-sharing requirements.
Additionally, it underscores the importance of establishing and maintaining adequate AOR files:

       These files are your primary tools for carrying out your duties and responsibilities
       as the AOR for this cooperative agreement and provide documentation of your
       actions. Inadequate files will impede your or your successor AOR’s ability to
       manage the cooperative agreement and therefore may jeopardize the program
       for which it was awarded. These files also help successor AORs to understand
       your actions as AOR and the reasons behind such actions, as well as to have
       adequate files for audit purposes.

As discussed below, USAID/Senegal’s education team could not provide adequate evidence of
performing some of these management responsibilities.

Ongoing, Close Collaboration in the Implementation of Project Activities

•   AOR review and approval of plans and reports. USAID/Senegal did not document its review
    of quarterly and annual reports. Additionally, USAID/Senegal officials provided only
    provisional approval of the project’s FY 2013 work plan.

•   Oversight of activities. RTI employees said that after the first AOR left in September 2011,
    USAID/Senegal officials provided limited oversight. Employees said the AOR made few

3
 “Agreement Officer’s Representative (AOR) Designation – Cooperative Agreement Administration,
An Additional Help for ADS Chapter 303.”


                                                                                                 5
    visits to the project sites, and the mission did not give feedback on quarterly progress
    reports. Moreover, USAID/Senegal officials poorly documented meetings and
    communications with the project managers. As a result, USAID/Senegal has an incomplete
    record of its management actions and decisions for the project.

•   Responsiveness. USAID/Senegal officials did not respond promptly to RTI’s requests for
    acknowledgement of reports, incremental funding, an agreement modification, and
    meetings.

Approval of a Monitoring and Evaluation Plan With Clear Benchmarks and Indicators. In
October 2012, RTI revised its monitoring and evaluation plan by updating some performance
targets and introducing several new indicators. However, the plan has several significant
deficiencies. Some indicators do not have precise definitions or methods of calculation. Others
lack clear targets and baseline data. Still, RTI was using the plan, and although USAID knew of
the problems, it had not approved the plan and did not help RTI fix the problems in a timely
manner.

Monitoring of Cost-Sharing Requirements. USAID/Senegal officials did not maintain
documentation showing that they monitored RTI’s progress toward meeting its cost-sharing
requirement. Instead, mission officials made RTI staff responsible for ensuring its compliance
with this requirement. A USAID/Senegal official said the mission would take appropriate actions
if RTI does not meet it by the end of the project.

Staffing difficulties and the Agency’s shift in its education strategy hindered the mission’s
oversight of the project. After the project began in May 2010, USAID/Senegal’s education office
experienced high turnover, unexpected departures, and understaffing. Consequently, four AORs
had overseen the project’s implementation at the time of the audit. At times, only two mission
officials managed the education portfolio.

Then in February 2011 USAID released an updated education strategy that, for Senegal,
emphasized improved reading skills in primary grades. This policy shift required an adjustment
to ongoing projects. As a result, a USAID/Senegal official said that AORs did not have time to
carry out, much less to document, management responsibilities.

Despite these obstacles, AORs knew what they were expected to do. In accepting the AOR role,
they had the responsibility to perform the duties inherent to the position. Yet these officials did not
adequately oversee some aspects of project implementation.

Adequate oversight of awards is crucial to ensure that USAID/Senegal implements its projects
as planned and achieves optimal results. The lack of proper oversight increases risks to project
achievement and links directly to the performance problems discussed in this report. Had
USAID/Senegal officials provided more oversight, these problems could have been identified
and addressed earlier.

The project was to end in September 2014. Actions to rectify these issues at this late stage may
not influence the project’s overall results. However, to ensure that USAID/Senegal provides
adequate oversight to ongoing and future projects, we make the following recommendation.




                                                                                                     6
   Recommendation 1. We recommend that USAID/Senegal implement a plan to ensure
   that its technical offices perform necessary management responsibilities, including
   maintaining adequate files.

Implementing Partner Included Ineligible
Costs in Its Cost-Share Contribution
Besides defining cost share as a recipient’s contribution to the agreement’s total cost, ADS
303.3.10 states: “Cost share becomes a condition of an award when it is part of the
approved award budget.” ADS 303.3.10.4 requires agreement officers to “review the
applicant’s proposed cost-share contributions for cost realism.” It further explains that since cost
share applies throughout an agreement, an AOR should “monitor the recipient’s financial reports
to ensure that the recipient is making progress toward meeting the required cost share.”

The cooperative agreement between USAID/Senegal and RTI includes a provision that “the
recipient agrees to non-federal funding of an amount of not less than $594,900, which can be
leveraging, funding, or in-kind contributions.”

In June 2011, USAID/Senegal and RTI agreed on several items that would make up sources of
the project’s cost share. As of November 30, 2013, RTI reported that it had met 97 percent of its
share. However, in its calculations, RTI deviated from the approved list by including the salaries
paid by the Ministry of Education to teachers providing remedial instruction in the project
schools.

The Ministry of Education pays teachers a salary based on a requirement to give 25 hours of
class each week. The hours that teachers spend on remedial classes often figure into their base
requirement of hours owed to the Ministry of Education. Consequently, these hours, and the
accompanying salaries, should not be included in RTI’s cost-sharing contribution.

USAID/Senegal officials did not monitor RTI’s cost-sharing requirement during the course of the
project’s implementation. Therefore, mission officials did not know what items RTI claimed as
part of its cost-share calculation.

As of November 30, 2013, RTI included as cost sharing teacher salaries totaling $251,713. This
amount represents ineligible questioned costs because salaries were not on the list of agreed-
upon expenditures and because the Ministry of Education would have paid the salaries whether
the remedial program operated or not.

To address this issue, we make the following recommendations.

   Recommendation 2. We recommend that USAID/Senegal implement a plan to
   document its quarterly review of Research Triangle Institute’s cost-share contribution.
   This review should include steps to request supporting documentation for the amount
   reported and to verify that the reported items comply with the agreed-upon elements for
   the project.

   Recommendation 3. We recommend that USAID/Senegal determine the allowability of
   the $251,713 in ineligible questioned costs included in the project’s cost-sharing
   contribution and collect from Research Triangle Institute any amount deemed
   unallowable.


                                                                                                  7
Design and Implementation Weaknesses
Made Some Activities Unsustainable
ADS 200.6 defines sustainability as “the continuation of benefits after major assistance has
been completed.” USAID’s Policy Framework 2011–2015 explains that “sustainability is about
building skills, knowledge, institutions, and incentives that can make development processes
self-sustaining.” To be successful, USAID must incorporate sustainability into projects from the
beginning. RTI recognized the importance of sustainability and described it, in the cooperative
agreement, as a measure of the project’s successful implementation.

However, the project’s remedial program, youth, and inclusive education activities had design
and implementation weaknesses that threatened their continued success.

Component 3: Strengthen Students’ Basic Skills in Reading and Math. Many school
administrators had difficulty convincing teachers and students to participate in the remedial
program. Since many schools offered it outside the official school day, teachers sacrificed their
free time. While students attended if the program provided refreshments, an incentive often
financed through the project’s grant funds, the project planned to use these funds to improve
teacher performance, increase provision of school materials, and improve school infrastructure.
If refreshments were no longer provided, attendance rates would likely plummet. Additionally,
project schools saw high turnover among teachers of remedial courses. When trained teachers
were reassigned, the losing school received no guarantee the teacher would be replaced with a
teacher trained to teach remedial courses. Although regional Ministry of Education personnel
recognized their role in maintaining remedial activities, some had no sustainability plan and
expressed concern about being able to continue.

Component 4: Mobilize and Create Opportunities for Youth. Component 4’s job skills
program included a three-part course on entrepreneurship, market opportunities, and
agribusiness. Through this course, youth would develop desirable and transferable skills
demanded by employers and be able to create their own employment opportunities. The project
targeted the wrong age group, youths aged 10 to 18, in the regions of Kédougou and
Ziguinchor. Although participants reportedly developed new aptitudes and the spirit of
entrepreneurship, none had successfully turned these skills into new employment opportunities.
As youths, participants were ineligible to secure the credit that facilitators cited as the biggest
impediment to starting a new business. Furthermore, some training facilitators and schools
stopped providing the training either because they had trained the required number of
individuals or because the teachers who were qualified to provide training were reassigned to
other schools. In addition, although schools implementing the project’s life skills program
reported high levels of satisfaction and positive behavior changes in participating students, such
as working in teams and helping each other, many decided to discontinue it because it was not
a required course.

Component 5: Inclusive Education. Since educators previously had no tools to assist in
identifying or teaching students with disabilities, those interviewed praised the project’s inclusive
education guide as being useful and pertinent. However, some educators admitted that because
schools have few or no students with disabilities, they did not implement any new techniques or
provide the training to other teachers. Many educators and a subawardee responsible for
implementing some inclusive education activities said that few children with disabilities enroll in
Senegalese schools. Those who do must first navigate elementary school. Therefore, an




                                                                                                   8
important segment—elementary students and teachers—missed valuable training that could
encourage the promotion of students with disabilities into middle school.

The project’s scope limited activities to middle school youth and middle school educators.
However, the middle school demographic does not represent the population most suited for
youth employability training or inclusive education activities.

Still, the project’s remedial program, job and life skills training, and inclusive education guide
could improve the quality of basic education in Senegalese schools. However, USAID/Senegal
and RTI did not ensure that authorities and educators had sufficient resources and interest for
the lasting success of these activities, as discussed later in this report. Added to that,
USAID/Senegal officials did not monitor the project’s implementation to ensure the sustainability
of activities because of understaffing.

Because the project is entering its final months of implementation, actions to address
sustainability may not have a strong impact. However, to foster sustainability in the
implementation of future projects, we make the following recommendation.

    Recommendation 4. We recommend that USAID/Senegal require its partners to include
    in their periodic progress reports a discussion of the sustainability of activities. This
    discussion should identify any obstacles to sustainability and actions to address them.

Six Regional Training Centers Were
Not Operating as Envisioned
As part of its component to “revitalize [and] regionalize teacher preparation and development,”
the project planned to help establish regional teacher training centers in the six regions it
worked in. The centers were to provide pre- and in-service training.

Although a 2011 presidential decree created centers throughout Senegal, they were not
operating as envisioned.

Centers Were Not Functioning as Expected. The decree that established the centers also
made them responsible for both pre- and in-service training of middle school teachers. Although
the centers do provide some in-service training, RTI staff and Ministry of Education personnel
cited several difficulties, including the lack of a training plan, the lack of training facilities, and
management challenges, that limit their functionality. Moreover, the centers in the project’s six
intervention areas had not begun to provide training to prospective teachers and were unlikely
do so by the end of the project. A September 2013 project-funded evaluation of the centers
highlighted these and more challenges and concluded the centers were not functioning as
expected.

According to RTI staff and Ministry of Education officials, some Ministry of Education personnel
misunderstood the role of the centers, and that misunderstanding—combined with a legal
challenge to the presidential decree—reduced the centers’ functionality. 4 A mission official said

4
 According to RTI and Ministry of Education personnel, officials at the teacher training institute at the
Université Cheikh Anta Diop de Dakar steadfastly opposed the decentralization of preservice training for
middle school teachers. They maintained the presidential decree was incongruent with the 2008 law that
established the institute and gave it the exclusive right to certify middle school teachers in Senegal.


                                                                                                       9
USAID/Senegal could have addressed these policy issues, but RTI said the mission didn't do so
when RTI asked for help in May 2012.

Center Renovation Was Delayed and Construction Will Not Be Completed. RTI and
USAID/Senegal did not clearly relate their expectations for the renovation and construction of
centers to one another or to the Ministry of Education.

Although RTI recognized that the new “institutions will need attention, in terms of renovation of
existing structures,” the program description did not specifically indicate the project would
undertake renovation or construction activities. Mission officials said that construction activities
were crucial for achieving component objectives, but the mission reviewed and approved the
program description and subsequent agreement modifications without formalizing construction
plans.

RTI planned to help establish the centers but did not complete its feasibility study until January
2012, approximately 1.5 years after the start of the project and several months after the
presidential decree took effect. The feasibility study highlighted the dilapidated conditions of
existing structures in some areas and the lack of land for new centers in other areas. The
search for adequate land proved problematic, delaying construction.

The delays were significant. Renovation activities for the centers in Kolda and Tambacounda
did not start until October 2013, more than 3 years into the project. RTI and the mission
canceled planned construction of centers in Kédougou, Sédhiou, and Ziguinchor without
informing the Ministry of Education.

Consequently, the centers were not functional. As the project enters its final months of
implementation, it is unlikely that RTI will make the centers capable of providing the pre- and in-
service training necessary to meet its objective. Therefore, to increase the functionality of
centers and to formalize USAID/Senegal’s construction plans, we make the following
recommendations.

   Recommendation 5. We recommend that USAID/Senegal, in coordination with
   Research Triangle Institute, implement a plan to resolve the problems impeding
   operations of the regional training centers.

   Recommendation 6. We recommend that USAID/Senegal notify the Ministry of
   Education, in writing, of its intention not to build regional training centers in project areas.

Remedial Program Fell Short of Its Goal
The project’s remedial program aimed to “strengthen students’ basic skills in reading and math”
and close the gap between middle school standards and students’ demonstrated competencies
through activities benefitting both teachers and students. The project also planned to create a
training program and materials that would improve the pedagogical skills of middle school
French and math teachers and their command of their subjects. Students weak in these
disciplines would take remedial courses. These interventions would lift “the majority of students
from low levels of proficiency in reading and math to satisfactor[il]y high levels of proficiency”
within an academic year.




                                                                                                      10
Although many educators said that the program encouraged student achievement, schools did
not implement it as intended. Educators described a number of problems that kept the program
from meeting expectations.

•   Lack of communications. RTI did not lay the necessary groundwork with educators.
    Because it did not fully explain how the remedial program would work, educators
    misunderstood, as the other examples below illustrate.

•   Insufficient tool kits distributed to partner schools. Teachers involved in the program
    received guidebooks called tool kits but were told not to distribute them to students or
    administer tool kit exercises as traditional classroom exercises. Nonetheless, educators
    used the tool kits as the primary means of instruction for the course and said their schools
    did not receive enough tool kits to distribute one to all participating students.

•   Tests and tool kits not tailored to grade level. The project differentiated its remedial course
    from tutoring or a review course by explaining that it should not focus on the activities and
    exercises that students see in class. However, many educators criticized the diagnostic tests
    and tool kits for not being tailored to subjects taught at students’ current grade levels.

•   Large class sizes. Project materials stated that classes should have a maximum of
    15 students. However, many schools lacked the classrooms and trained teachers to offer
    enough classes to achieve this size. Instead, classes often had 25 or more students. Large
    class sizes did not allow teachers to provide the individual attention vital to student success.

•   Repetition of diagnostic tests and tool kits. Each year, all students in targeted grade levels
    take a diagnostic test to determine their need for remedial courses. Educators said that no
    changes were made to either the diagnostic tests or the tool kits from year to year;
    therefore, students were repeatedly tested on the same questions and taught the same
    exercises.

•   Late start to remedial program. Although the project recommended that diagnostic tests be
    administered and scored during the second week of the school year (early October), no
    project school visited had administered the diagnostic tests by late November.
    Consequently, schools had not identified student need or begun the classes. Principals and
    teachers said that the late start to the classes meant that not all required competencies
    could be taught. Also, some principals said that the course could not be incorporated into
    the official school schedule; therefore, many schools administered it as an after-hours,
    weekend, or lunchtime program.

•   Need for instruction underestimated. RTI staff estimated that 50 to 60 percent of students
    require remediation; however, testing indicated that about 75 percent of students needed it.
    In some schools, more than 90 percent of students participated in the program.

Lack of staff in the mission’s education office hindered oversight of the project to ensure RTI
properly implemented the remedial program. A properly implemented remedial program can
raise the quality of education, but improper implementation of the remedial course limits its
effectiveness. A 2013 internal evaluation of the program suggested that only 15 percent of
students developed proficiency through the course. Therefore, most students repeated it, at
least once, before mastering the competencies covered.




                                                                                                 11
Although the number of students requiring remedial instruction and the availability of classroom
facilities are not within USAID/Senegal’s or the project’s control, coordination and
communication with administrators and teachers are. Therefore, we make the following
recommendations.

   Recommendation 7. We recommend that USAID/Senegal, in coordination with
   Research Triangle Institute, develop clear and user-friendly documents for teachers and
   school administrators to use in carrying out the remedial course.

   Recommendation 8. We recommend that USAID/Senegal, in coordination with
   Research Triangle Institute, implement a plan to retrain teacher trainers in the proper
   administration of the remedial course and its accompanying tool kit. This plan should
   include a schedule for carrying out additional teacher-retraining sessions.

Some Reported Results Lacked Sufficient
Documentation and Did Not Meet Data
Quality Standards
ADS 203.3.11.1 emphasizes the importance of high-quality data for decision making and
outlines the quality standards that make data “useful for performance monitoring and credible
for reporting.” These standards include:

           1) Validity: Data should clearly and adequately represent the intended result;

           2) Integrity: Data collected should have safeguards to minimize the risk of
               transcription error or data manipulation;

               ****

           5) Timeliness: Data should be available at a useful frequency, should be
               current, and should be timely enough to influence management decision-
               making.

ADS 203.3.11.2 further explains that data quality assessments (DQAs) let USAID missions
know the strengths and weaknesses of reported data. DQAs determine the “extent to which
data integrity can be trusted to influence management decisions.” At least 3 years before
submitting data on indicators that the Agency reports externally, USAID missions must assess
the quality of the indicator data.

RTI measures the project’s results through 54 performance indicators. However, RTI lacked
sufficient documentation on some of them. Therefore, reported results for many indicators could
not be validated. For others, the project’s reporting did not meet the standards of validity,
integrity, and timeliness.

Validity. In FY 2012, the project reported 14,869 for the Number of middle school students that
participate in remediation and reinforcement activities. However, one number represents neither
a clear nor an adequate result for this indicator. Partner schools provide remedial instruction in
two subjects, and many students participate in both courses. However, project reporting does
not differentiate the number of students participating in each course. Therefore, the reported



                                                                                               12
figure may count some students twice. The audit team verified 7,596 students enrolled in
remedial French and 8,759 students enrolled in remedial mathematics, but these figures do not
necessarily represent unique participants. Also, the verified total of 16,355 students does not
agree with the project’s reporting. Further, RTI could not provide documentation supporting the
number reported for one region.

In another example, the project reported 4,391 for the Number of manuals/didactic materials
provided with USG [U.S. Government] support during the 2011-2012 academic year. However,
supporting documentation for this figure included data for the following academic year. In
addition, RTI could not provide the supporting documentation for two regions. Therefore, only
2,182 manuals and other materials could be verified for the period in question.

Integrity. The project relied on its partner schools’ self-reported enrollment data to calculate the
Number of learners enrolled in USG-supported middle schools. However, many of these
schools reported inaccurate information on the sex of students enrolled in each class. In
addition, many transcription errors occurred during the data entry process. As shown in Table 1,
these errors led to unreliable reporting.

      Table 1. Number of Learners Enrolled in U.S. Government-Supported Middle Schools,
                                  FYs 2011 and 2012 (audited)
Group          Reported      Verified     Difference     Reported      Verified    Difference
                 2011          2011            %            2012        2012            %
Boys            24,068        19,504           19          44,239      54,579          -23
Girls           17,410        14,849           15          36,817      43,424          -18
Total           41,478        34,353           17          81,056      98,002          -21

As shown in Table 2, the verified result for FY 2012 for the Percentage of women teachers in
the regions supported by [the project] did not vary greatly from that reported. However, RTI staff
did not accurately enter the data into the project’s database. The database contained errors for
54 of the 158 schools supplying information (34 percent). At the regional level, inaccuracies
were more pronounced. For example, of database entries for 30 schools reporting from the
Kolda region, 25 (83 percent) were incorrect.

      Table 2. Women Teachers in the Regions Supported by the Project, FY 2012 (%) (audited)
Information     Fatick  Kédougou      Kolda    Sédhiou    Tambacounda Ziguinchor          Total
Reported          23       15           16         9            16              12          15
Verified          21       13           16        11            19              15          16

Timeliness. Because data from partner schools were not available until after USAID’s reporting
deadline, the project estimated the results it reported for some indicators. Doing so resulted in
discrepancies between some reported and verified results. For instance, in FY 2012, RTI
reported that 166 of 168 (99 percent) middle schools implemented at least 50 percent of their
quality improvement plan activities. However, documentation showed that only 29 partner
schools (17 percent) had achieved this goal. Also in FY 2012, RTI reported that 168 partner
middle schools held a community forum. However, RTI had data for only 75 schools
(45 percent).

Although the project began in May 2010, USAID/Senegal did not perform a DQA until October
2013. Prior to this assessment, USAID/Senegal officials performed limited data verification,
focused only on standard indicators, and acknowledged several known weaknesses with the
project’s data. As part of the DQA process, USAID/Senegal reported that data were “reviewed,


                                                                                                 13
cleaned, corrected and updated on the basis of what appears in the document[ation].” In
addition, RTI’s lone monitoring and evaluation staff member compiled a large volume of
paperwork to report on the project’s many indicators. However, a disorganized filing system
contributed to the inability to verify the reported results.

Because of the problems described above, USAID/Senegal risks making programmatic
decisions for the project based on data that do not meet prescribed quality standards. To
address this issue, we make the following recommendation.

   Recommendation 9. We recommend that USAID/Senegal, in coordination with
   Research Triangle Institute, implement a plan to verify that the final results reported by
   the project comply with USAID data quality standards.




                                                                                                14
EVALUATION OF MANAGEMENT
COMMENTS
In response to the draft report, USAID/Senegal officials agreed with all recommendations and
provided action plans and target dates for implementing them. We acknowledge the mission’s
management decisions on all recommendations, except Recommendation 3.

Recommendation 1. USAID/Senegal officials agreed to implement a plan requiring technical
offices to perform their management responsibilities, including maintaining adequate files. The
mission conducted training courses for technical teams to emphasize the roles and
responsibilities of AORs. In addition, mission officials intend to establish project-specific e-mail
accounts to verify that project files and documents are maintained at the mission and do not
depend on individual staff e-mail accounts. USAID/Senegal officials plan to complete this action
by August 31, 2014. We acknowledge the mission’s management decision.

Recommendation 2. Mission officials agreed to review cost share for awards that use letters of
credit and obtain support for cost-sharing amounts listed in program quarterly financial reports.
USAID/Senegal officials set August 31, 2014, as the target date. We acknowledge the mission’s
management decision.

Recommendation 3. Mission officials agreed to determine the allowability of the $251,713 in
ineligible questioned costs in the project’s cost-sharing contribution plan and planned to make a
determination by September 30, 2014. Thus, the mission did not make a management decision.

Recommendation 4. USAID/Senegal officials agreed to require partners to include in their
periodic progress reports a discussion of the sustainability of activities. The mission planned to
request that RTI include a discussion on sustainability, starting in the third quarterly report for
FY 2014, due to the mission by August 31, 2014. We acknowledge the mission’s management
decision.

Recommendation 5. Mission officials agreed to implement a plan to assess problems that have
impeded the full operation of the regional training centers. Using results of this assessment,
they planned to modify the agreement’s program description, if necessary, to reflect needed
changes by August 31, 2014. We acknowledge the mission’s management decision.

Recommendation 6. USAID/Senegal officials agreed to provide the Ministry of Education
written notice that no new construction of regional training centers will take place. Its target date
for doing so is August 31, 2014. We acknowledge the mission’s management decision.

Recommendation 7. Mission officials agreed to have RTI coordinate with the Ministry of
Education in assessing which materials can be made user-friendly. Using results of this
assessment, RTI will submit a report to USAID/Senegal and take necessary action by August
31, 2014. We acknowledge the mission’s management decision on Recommendation 7.

Recommendation 8. Mission officials agreed to implement a plan to retrain teacher trainers in
the proper administration of the remedial course and accompanying tool kit. USAID/Senegal
intended to implement this plan by August 31, 2014. We acknowledge the mission’s
management decision.



                                                                                                  15
Recommendation 9. Mission officials agreed to implement a plan to verify that the final results
reported by the project comply with USAID data quality standards. Officials planned to review
the data quality and issue a report on it by August 31, 2014. We acknowledge the mission’s
management decision on Recommendation 9.




                                                                                            16
                                                                                         Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
They require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions in accordance with our audit
objective. We believe that the evidence obtained provides that reasonable basis.

The audit’s objective was to determine if USAID/Senegal’s Education Priority Quality Project
successfully achieved its objective of improving the quality of education in supported schools.
The mission awarded a 4.5-year, approximately $19.8 million cooperative agreement with RTI in
May 2010. USAID/Senegal increased this amount to $20.1 million in September 2011 to add a
component and decreased it to $15.8 million in September 2013. As of November 30, 2013,
USAID/Senegal had obligated $12.1 million and disbursed $11.2 million for the project. This was
a performance audit, focused on program implementation rather than financial transactions;
therefore, the audit did not include a financial review of project disbursements.

RTI carried out activities in six regions of Senegal. The audit covered the project’s activities,
both completed and ongoing, from the start of the project in May 2010 until September 30,
2012, for validating performance data, but also examined activities through November 30, 2013,
to assess additional progress.

In planning and performing the audit, we reviewed USAID/Senegal’s compliance with applicable
laws, regulations, and USAID policies and procedures. We also assessed significant
management controls established by USAID/Senegal and RTI for the management and
oversight of project activities. These controls included USAID/Senegal’s Country Development
Cooperation Strategy, the cooperative agreement and modifications, annual work plans,
progress reports, site visit reports, and the project’s monitoring and evaluation plans. In addition,
we reviewed USAID/Senegal’s FY 2013 annual self-assessment of management controls, which
missions are required to perform to comply with the Federal Managers’ Financial Integrity Act of
1982 (as codified in 31 U.S.C. 3512).

We conducted our audit fieldwork in Senegal from August 21, 2013, to January 16, 2014, in and
around the cities of Dakar, Fatick, Kédougou, Kolda, Sédhiou, Tambacounda, and Ziguinchor.

Methodology
The project has five components: (1) revitalize and regionalize teacher preparation and
professional development, (2) create a whole school environment, (3) strengthen students’
basic skills in reading and math, (4) mobilize and create opportunities for youth, and
(5) encourage inclusive education. We evaluated the project’s progress in all five components.
We also tested data that RTI used to measure its progress against the project’s goals.

In doing so, we relied on these sources of evidence: the cooperative agreement and
modifications; interviews with USAID/Senegal officials, RTI staff, officials with Synapse Center (a
project subawardee), Ministry officials (the Ministry of Education and the Ministry of Youth), and
other beneficiaries; and documentation kept at the mission and at the contractor’s main office.



                                                                                                  17
                                                                                       Appendix I



To answer the audit objective, we conducted interviews with personnel from USAID/Senegal,
RTI, subawardees, the Government of Senegal’s Ministry of Education and Ministry of Youth,
and local nongovernmental organizations. We also interviewed principals, teachers, and
students from partner schools throughout the project’s intervention area to obtain an
understanding of the program’s activities and progress. We conducted site visits to 8 of the
project’s 168 partner schools for the 2011–2012 school year to assess whether the project
implemented its activities as intended. We judgmentally selected schools to visit, with
assistance from RTI staff, based on accessibility from the project’s regional offices and security
concerns.

Through these interviews and the review of documents described above, we evaluated
USAID/Senegal’s management and oversight of the project’s activities, the performance of the
implementing partner, and the effectiveness of the implemented activities. We obtained an
understanding of the internal controls system put in place by RTI related to budgeting, the cost-
share requirement, and grants management.

We tested project data to assess the quality of the project’s reported results. In validating
program data, we judgmentally selected indicators that had reported results, had readily
available supporting data, and were indicative of the program’s objectives. For FY 2011, we
tested 1 of 43 indicators, and for FY 2012, we tested 20 of 54 indicators.

The results and overall conclusions related to this testing were limited to the items tested and
cannot be projected to the entire audit universe. However, we believe that our work provides a
reasonable basis for our conclusions.




                                                                                               18
                                                                                                 Appendix II



MANAGEMENT COMMENTS


                                           MEMORANDUM

DATE:           June 13, 2014

TO:             Abdoulaye Gueye, Regional Inspector General/Dakar

FROM:           Susan Fine, Mission Director, USAID/Senegal /s/

REF:            RIG/Dakar Draft Audit Report No. 7-685-14-00X-P



  This memorandum transmits USAID/Senegal’s management comments to the subject
  RIG/Dakar Draft Audit Report. Thank you for sharing the draft report and providing us the
  opportunity to offer clarifications and our response. We view audits as an opportunity to
  improve USAID programming and accountability. Before addressing the nine
  recommendations put forth by the subject draft report, we would like to take the opportunity
  to provide clarifications regarding some of the information presented in the report.

I.      CLARIFICATIONS

  Terms of Cooperative Agreements: Cooperative agreements bring with them some
  measure of flexibility to modify programs and adjust for evolving development contexts in
  complex environments. As an Assistance mechanism, cooperative agreements can produce
  impressive development results and maintain a great deal of accountability when the
  implementing partner project team is effective and has good leadership. In cases in which
  implementation meets internal challenges, the nature of cooperative agreements, as
  development assistance as opposed to contracting, can make it more difficult for USAID to
  bring about swift changes in project management, especially where staffing is concerned.
  USAID/Senegal believes that it is important to consider the context – opportunities and
  constraints – of working under cooperative agreements.

  Substantial Involvement: Even though USAID/Senegal was short staffed, we had
  correspondence and documented meetings to demonstrate that there was substantial
  involvement on the part of USAID/Senegal. Due to Research Triangle Institute (RTI) being
  unable to fully meet the terms of the Cooperative Agreement (CA), the CA was modified and
  funding was reduced. The delays in approval of workplans and budgets were due to the fact
_____________________________________________________________________________________
Route des Almadies B.P. 49 Dakar, Sénégal Téléphone : 33-33 879 40 00 - Internet : senegal.usaid.gov
                                                                                                         19
 that they did not fully comply with the CA requirements as submitted. USAID/Senegal and
 the Implementing Partner embarked on a series of long and detailed discussions in order to
 rectify the workplans and budgets submitted by RTI. Requests for improvement or
 clarification of workplans and budgets further support our efforts as part of substantial
 involvement. USAID/Senegal is fully committed to working closely with our Implementing
 Partners and it should be noted that USAID/Senegal spent significant time supporting and
 coaching the RTI Chief of Party (COP) to help her perform the requirements of the
 Cooperative Agreement. In addition, USAID/Senegal arranged for a seasoned COP to
 provide support and mentoring for the RTI COP.

 Development Context: It is important to highlight the development context, as it effects
 implementation and can engender successes or set-backs. Adjustments are made to address a
 changing context throughout the life of any agreement. Many factors, both within and outside
 of USAID control, impact the use of resources and our ability to achieve the exact results as
 originally anticipated in an activity design. For example, the use of remedial materials
 destined for certain grades being used at other grade levels is not necessarily a design flaw or
 failure but part and parcel of the development context. In schools in which there is a shortage
 of any educational materials, educators are often found using whatever becomes available,
 even if those materials were not intended for the grades in which they may be eventually
 used.

 Staffing and Documentation: USAID/Senegal recognizes that there were significant
 staffing shortages and gaps in staffing during the course of this agreement, due to
 unanticipated staff departures. USAID/Senegal also concurs that proper records were not
 adequately maintained throughout the life of this award, some of which is a direct result of
 staff departures (specifically, staff not printing emails or other correspondence that were
 saved on private drives prior to departure). This is not a systemic issue within the Mission or
 even the technical office, as other project files are satisfactory and contain required
 documentation. However, USAID/Senegal has taken immediate actions to ensure full
 compliance with all AOR responsibilities.

 Interviews of key stakeholders can provide insightful and detailed contextual information in
 order to gain an accurate and full picture of the management of the program when performed
 in a timely and well-sequenced manner. Unfortunately, audit team staff turnover as well as
 USAID staff turnover, inhibited the consultation of a few key stakeholders during their
 periods of availability in country.


II.   USAID/SENEGAL RESPONSE TO THE AUDIT FINDINGS AND
   RECOMMENDATIONS

 Finding: USAID/Senegal did not comply with some Substantial Involvement clauses

 Recommendation 1: We recommend that USAID/Senegal implement a plan to ensure that
 its technical offices perform necessary management responsibilities, including maintaining
 adequate files.
USAID/Senegal’s position on the finding and Recommendation 1: USAID/Senegal
concurs with the finding that steps need to be taken to ensure adequate project files are
maintained and that substantial involvement clauses in the agreement must be respected.

Action Taken/Planned:
The Regional Agreement Officer recently organized refresher courses for technical teams.
These courses focused on the roles and responsibilities of CORs/AORs. Another training
session was organized to provide guidance on the role of CORs/AORs as financial managers.
The FY 2014 FMFIA testing will also focus on AOR and COR responsibilities to review
compliance and documentation by July 31, 2014. In addition, USAID/Senegal is taking
actions to use a project email account to ensure that all correspondence is maintained at the
Mission level and is not dependent on individual staff email maintenance by August 31,
2014. Based upon implemented and planned actions, USAID/Senegal agrees with this
recommendation and requests that a management decision be issued and
Recommendation 1 will be closed (final action) upon the implementation of the above
planned actions by August 31, 2014.


Finding: Implementing Partner included ineligible costs in its Cost Share Contribution

Recommendation 2: We recommend that USAID/Senegal implement a plan to document its
quarterly review of RTI’s cost-share contribution. This review should include steps to request
supporting documentation for the amount reported and to verify that the reported items
comply with the agreed-upon elements for the project.


USAID/Senegal’s position on the finding and Recommendations 2 and 3: Per ADS
303.3.10.4, Meeting Cost Sharing Requirements applies throughout the life of an agreement,
and the AOR is required to monitor the recipient's financial reports to ensure that the
recipient is making progress toward meeting the required cost share.

Action Taken/Planned
USAID/Senegal OFM has implemented tracking tools to review spending, including cost
share, for awards using Letters of Credit. The total cost share is compared to total budget,
and if spending is not in line with the elapsed time of the agreement or in line with project
spending, then additional explanation is requested. If the quarterly analysis highlights areas
of concern related to spending or cost share, further documentation is requested or a financial
review is performed. During the financial reviews, cost share is analyzed and audited in
detail. USAID/Senegal has worked closely in coordination with RTI to analyze their cost
share, and amendments have been made to include only allowable costs in the cost share
calculations. RTI now has in place a new strategy for meeting their cost share requirements
under the Cooperative Agreement by the end of the award period. This strategy has been
reviewed and approved by the AOR and the Agreement Officer. USAID/Senegal agrees
with this recommendation and plans to obtain details behind the cost share submitted
quarterly. Therefore, we request that a management decision be issued and
Recommendations 2 will be closed (final action) after receiving details of the quarterly
cost share incurred by August 31, 2014.

Recommendation 3: We recommend that USAID/Senegal determine the allowability of the
$251,713 in ineligible questioned costs included in the project’s cost-sharing contribution
and collect from Research Triangle Institute any amount deemed unallowable.

Action Taken/Planned
To address this recommendation, USAID will review RTI resubmitted cost share to identify
other allowable components of EPQ cost share which includes tracking the contribution of
the schools/communities where the project has been working. These communities have
conducted a significant amount of mobilization/construction activities as a result of their
school improvement plans (an EPQ activity). These include providing food and refreshments
for students staying after school to participate in the remediation program, cleaning up and
putting up fences around the school, even sometimes building additional classrooms or
connecting local electricity. Therefore, USAID/Senegal agrees with this recommendation
and will request a management decision be issued upon the Agreement Officer’s
determination of the allowability of cost share totaling $251,713 by September 30, 2014.


Finding: Design flaws made some activities unsustainable

Recommendation 4: We recommend that USAID/Senegal require its partners to include in
their periodic progress reports a discussion of the sustainability of activities. This discussion
should identify any obstacles to sustainability and actions to address them.

USAID/Senegal’s position on the finding and Recommendation 4: USAID/Senegal
concurs that sustainability is essential. As such, RTI included in its program description (p.72
of the Cooperative Agreement) a narrative about their plans to build sustainability from the
very start of the activity. Rather than identifying sustainability as a separate point of
intervention, the program description focuses on integrating the engagement of local partner
institutions and stakeholders, identification of synergies, and harmonization with other
education development partners throughout implementation.

Action Taken/Planned
The project has developed a sustainability and capitalization plan that was shared with the
Ministry of Education (MOE) during a workshop held by RTI in February 2014. The purpose
of the workshop was to identify with the MOE those elements of the project that will be
sustained by the MOE after the close of EPQ and to develop a transition plan accordingly. In
regards to reporting, it must be recognized that while sustainability is not a new focus in
USAID, there is considerably more emphasis on sustainability under the new Project Design
Guidance that was released in December 2011. New projects awarded under this guidance
meet mandatory requirements for addressing issues of sustainability.

USAID will plans to request that RTI includes a discussion on sustainability in the last two
quarterly reports. Therefore, USAID/Senegal agrees with recommendation and requests
that a management decision be issued and Recommendation 4 will be closed (final
action) upon receipt of the FY 14 3rd quarter progress report from RTI by August 31,
2014.


Finding: Six regional training centers were not operating as envisioned

Recommendation 5: We recommend that USAID/Senegal, in coordination with Research
Triangle Institute, implement a plan to resolve the problems impeding operations of the
regional training centers.

USAID/Senegal’s position on the finding and Recommendations 5 and 6: The operation
of the regional teacher training centers, as mandated by a 2011 presidential decree, was not
realized due to high level political disagreement between the Ministry of Education and the
Ministry of Higher Education. This means that to date there has been no agreement within
the Government of Senegal about the transition of middle school pre-service teacher training
activities to these regional centers. Discussions occurred during official meetings, such as
steering committees, joint portfolio reviews, and political dialogues between USAID and
MOE officials over a couple of years. Despite efforts to bring this debate to some resolution,
no solution was found or implemented by the Government of Senegal. As a result, the pre-
service training of middle school teachers, envisaged under the EPQ activity, did not occur.
USAID/Senegal remained in close communication with the MOE regarding this issue, as
well as the construction or renovation of regional training centers. The construction of new
regional teacher training centers was likewise not realized due to related political
disagreement. USAID and RTI finally agreed that the only infrastructure intervention within
the manageable interest of the project was to complete renovation work at two regional
centers, which will be completed before the end of the award period.

Action Taken/Planned
USAID/Senegal will implement a plan to assess problems that have impeded the full
operation of the regional training centers, as was envisaged in the original program design.
Based on the conclusions identified by this assessment, USAID will modify the cooperative
agreement, as necessary, to reflect changes in the program description. Therefore,
USAID/Senegal requests that a management decision be issued and Recommendation 5
will be closed (final action) upon submission of the assessment document and execution
of any recommended modification to the award document by August 31, 2014.

Recommendation 6: We recommend that USAID/Senegal notify the Ministry of Education, in
writing, of its intention not to build regional training centers in project areas.

Action Taken/Planned
USAID/Senegal is currently drafting a letter to the MOE that will provide written
confirmation of the fact that no new construction of regional training centers will take place,
however, per previous discussions, the renovation of two centers will be completed under
EPQ before the close out of the activity as part of the final year workplan. Therefore,
USAID/Senegal agrees with this recommendation and requests that a management
decision be issued and Recommendations 6 will be closed (final action) upon issuance of
the letter to the MOE planned by August 31, 2014.


Finding: Remedial Program Fell Short of Its Goal

Recommendation 7: We recommend that USAID/Senegal, in coordination with Research
Triangle Institute, develop clear and user-friendly documents for teachers and school
administrators to use in carrying out the remedial course.

USAID/Senegal’s position on the finding and Recommendations 7 and 8:
USAID/Senegal is surprised by this finding as the Mission has received positive feedback
from the MOE, teachers and administrators regarding the remediation materials. The fact that
they have value seems to be evidenced by the fact that teachers have turned to them for use in
their classes and that the MOE has committed to taking over the further development and use
of these materials after the close of the EPQ activity. With only a few months remaining in
the cooperative agreement and now at the end of the academic year, it is not feasible or
practical to pursue development of new materials or retrain teachers.

Action Taken/Planned
Under the sustainability strategy and transition plan developed by RTI and the MOE for the
close out of this activity, the MOE will continue to build on and improve the French and
Math remediation tool kits developed under EPQ, as well as the remediation management
tools used by teachers in the classroom. RTI will also review the findings of this
recommendation including grade appropriate use and classroom size in coordination with
MOE to identify any areas where the materials can be made user friendly. RTI will submit a
report on the outcome of this meeting and any actions taken. Therefore, USAID/Senegal
agrees with this recommendation and requests that a management decision be issued,
and Recommendation 7 will be closed (final action) upon submission of the RTI report
planned for August 31, 2014.

Recommendation 8: We recommend that USAID/Senegal, in coordination with Research
Triangle Institute, implement a plan to retrain teacher trainers in the proper administration
of the remedial course and its accompanying tool kit. This plan should include a schedule for
carrying out additional teacher-retraining sessions.

Action Taken/Planned
RTI will develop and implement a plan for the re-training of trainers in the proper
administration of the remediation course and accompanying tool kits, with an emphasis on
grade-appropriate use of the materials. These trainers will then be positioned to carrying out
additional training of teachers, even after the close of the EPQ activity, per the
sustainability/transition plan that was developed with EPQ and has been adopted by the
MOE. Therefore, USAID/Senegal agrees with this recommendation and requests that a
management decision be issued, and Recommendation 8 will be closed (final action)
upon submission of documentation that the training was planned and implemented by
August 31, 2014.
Finding: Some reported results lacked sufficient documentation and did not meet data
quality standards

Recommendation 9: We recommend that USAID/Senegal, in coordination with Research
Triangle Institute, implement a plan to verify that the final results reported by the project
comply with USAID data quality standards.

USAID/Senegal’s position on the finding and Recommendation 9: USAID/Senegal
wholly supports efforts to ensure data quality standards under all of its projects, working
closely with all its implementing partners. The Mission follows guidance provided in ADS
203 and 597 regarding the implementation, use and timing of DQAs, which are required at
least every three years. USAID/Senegal recognizes that DQAs for EPQ should have been
conducted earlier in the activity’s implementation.

Action Taken/Planned
Data Quality Assessments were conducted by USAID/Senegal for EPQ in October 2013. The
findings of those assessments were addressed with RTI and resolutions identified to any
questions or issues. USAID/Senegal education and monitoring and evaluation specialists
continue to work with RTI on data quality, and no additional issues are expected to this
regard in the final months of the activity. Therefore, USAID/Senegal agrees with this
recommendation and requests that a management decision be issued and
Recommendation 9 will be closed (final action) when USAID reviews the data quality
and issues a report by August 31, 2014.
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
